NO.

In The
SUPREME COURT OF THE UNITED STATES

Writ of Certiorari for
Appeal No. 19-2113 in the United States Court of Appeals for The Eighth Circuit

APPLICATION TO ASSOCIATE JUSTICE NEIL M GORSUCH FOR
EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI IN THE SUPREME COURT
DONALD H. SCOTT, Pro Se
CAROLYN Y. SCOTT, Pro Se
PO BOX 901284
KANSAS CITY, MO 64190
816 455 7343

RECEIVED
DEC -3 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

G,

COMES NOW, Appellants and for their application to the Honorable Associate
Justice Neil M. Gorsuch for an extension of time to file a Writ of Certiorari in the
Supreme Court states as follows:
This application is timely because the Order denying the timely filed Petition
for Rehearing in case No. 19-2113 was entered on 09/13/2019 and the time
for filing the Writ of Certiorari is 12/12/2019.
The reason for granting this application is that the Appellants need the
additional time to prepare their Writ of Certiorari in booklet format pursuant
to Rule 33.1 and pay the $300 docket fee required by Rule 38(a).
WHEREFORE, the Appellants request Honorable Associate Justice Neil M.
Gorsuch grant a 60 days extension of time to file a Writ of Certiorari to 2/10/2020.

onald H. Scott, Pro Se Appellant
PO Box 901284
Kansas City, MO 64190
816 455 7343

Carolyn Y. Scott,jrro Se,lppellant
PO Box 901284
Kansas City, MO 64190
816 455 7343

